December 3, 2009

EDWARD H. RUIZ, JR.
ACTING DISTRICT MANAGER, LOS ANGELES DISTRICT

SUBJECT: Audit Report – Fiscal Year 2009 Los Angeles District Financial Risk
         (Report Number FF-AR-10-028)

This report presents the results of our audit of financial accountability in the Los Angeles
District (Project Number 09BD019FF000). We conducted this self-initiated audit at
11 judgmentally selected post offices and stations and one business mail entry unit
(BMEU) to evaluate financial risk as identified by U.S. Postal Service Office of Inspector
General’s (OIG) Performance and Results Information System (PARIS) models. See
Appendix A for additional information about this audit.

Conclusion

We identified internal control and compliance issues at all but one of the 11 units
audited.1 Six units had internal control and compliance issues over stamp, cash, and
money order accountability; and 10 units had internal control and compliance issues
over financial accounting and reporting. The xxxxxxxxxxxxxxxxxxxxxx attributed these
conditions to inadequately trained supervisors, frequent detail assignments,2 and acting
manager assignments. When controls are not functioning as prescribed, there is an
increased risk the Postal Service could lose cash, accountable items, and revenue
without detection and misstate financial records.

Internal Controls Need Improvement

We identified internal control and compliance issues at all but one of the units audited.
Six of seven units had issues with stamp, money order, and cash accountability.3 For
example, the units exceeded their stock limits by $485,632, did not properly account for
$1.6 million in money orders, or did not properly manage vending credits after
deactivating and removing vending machines from service. Ten of 11 units had
financial accounting and reporting issues. For example, units did not research and
resolve expense items resulting from financial differences totaling $81,918 in net
shortages, close 129 inactive advance deposit accounts totaling $107,492, record
1
  At the one unit for which we found no internal control and compliance issues, we reviewed the advance customer
deposit accounts and transaction overrides.
2
  Management makes detail assignments on a temporary basis by moving staff from one unit to the next with the
intention of bringing the staff back to their original assignment.
3
  As discussed in Appendix A, we only audited the risk indicators for a unit if the unit scored in the top 20 highest risk
units in the district. In this instance, we reviewed seven units’ stamp, money order, and cash accountabilities.
Fiscal Year 2009 Los Angeles District                                                                FF-AR-10-028
 Financial Risk


approximately $31,000 in business reply mail (BRM) revenue, or monitor $13,689 in
employee items. See Appendix B for our detailed analysis of the findings. See
Appendix C for a summary of accountability examinations by unit, Appendix D for
details of the $250,151 monetary impact,4 and Appendix E for details of the $2,244,240
non-monetary impact.5

The xxxxxxxxxxxxxxxxxxxxxx stated that he recently filled some of the acting positions,
which should help improve adherence to procedures. In addition, the district finance
manager, who has been in his position since January 2009, stated the district recently
implemented procedures, which should improve its financial performance. For example,
it established a procedure in which the Los Angeles Stamp Distribution Office (SDO)
monitors and enforces stamp stock limits. The SDO will not send stamp stock to a unit
that has excess stock. Our PARIS model showed some improvement in this area as
the number of units in the district with significant excess floor stock declined from 63 to
52 from May to August of 2009.

We recommend the acting district manager, Los Angeles District:

1. Develop an action plan with milestones to address compliance issues at each unit
   and continue compliance with Postal Service policies.

Management’s Comments

Management agreed with the findings and recommendation. Management provided an
action plan, which details the corrective action taken to date. Management plans to
complete all corrective action by December 15, 2009. See Appendix F for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective action should resolve the issues identified in the report.




4
  This includes recoverable revenue loss, recoverable questioned costs, and unsupported unrecoverable questioned
costs.
5
  This includes assets or accountable items such as cash, stamps, and money orders that are at risk of loss because
of inadequate internal controls.




                                                         2
Fiscal Year 2009 Los Angeles District                                         FF-AR-10-028
 Financial Risk


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

cc: Vincent H. DeVito, Jr.
    Mark H. Anderson
    Mark A. McDonald
    Stephen J. Nickerson
    Steven R. Phelps
    Bill Harris




                                            3
Fiscal Year 2009 Los Angeles District                                                                FF-AR-10-028
 Financial Risk


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level where the Postal Service recognizes revenue from
operations and include main offices, stations, and branches. The postmasters or
installation heads are responsible for collecting all receipts to which the offices are
entitled, accounting for all funds entrusted to them, and ensuring the offices meet all
accounting objectives.

The Los Angeles District is in the Pacific Area and includes 140 post offices with
Point-of-Service (POS) system technology. The district reported approximately
$724.8 million of revenue in fiscal year (FY) 2008, $468.2 million6 of which the 11 units
we audited reported.7

The OIG performs periodic financial risk assessments. Based on financial data in the
Enterprise Data Warehouse, the OIG developed the PARIS models, which rank the
Postal Service’s districts with respect to specific financial and risk indicators.8 We
selected the Los Angeles District because our models suggested the district was a high
financial risk compared to others. For the second and third quarters, FY 2009, our Cost
and Control PARIS model data ranked this district as the seventh and fifth highest risk
district, respectively.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to identify high-risk accounting activities and determine
if corresponding internal control procedures were in place and effective.

To accomplish our objectives, we audited eight judgmentally selected units in the Los
Angeles District. We selected the sites based on high floor stamp stock levels, refunds,
expenses, inactive advance customer deposit accounts, and transaction overrides. We
only audited the risk indicators for units that scored in the top 20 highest risk in the
district. Therefore, we did not audit areas related to all risk indicators at all units. The
following are the judgmentally selected units:

       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

6
  In FY 2009, district revenue was $726.7 million, and revenue for the 11 units was $511.9 million.
7
  We obtained FY 2008 revenue for the Los Angeles District and the judgmentally selected units from the Financial
Performance Report via the Accounting Data Mart (ADM) as of September 30, 2008.
8
  The risk indicators include such items as excess stock, refunds, expenses, inactive accounts, and transaction
overrides.




                                                         4
Fiscal Year 2009 Los Angeles District                                           FF-AR-10-028
 Financial Risk


       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

We performed accountability examinations and evaluated whether the internal control
structure over disbursements and expenses was implemented and functioning as
designed. We reviewed transactions generated for the June 2008 through June 2009
reporting period related to disbursements and expenses.

During the audit, we expanded our review to include BRM/Postage Due (PD) advance
customer deposit accounts to determine whether units monitored and closed inactive
customer accounts. We reviewed accounts at the following units:

       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxxxxxxxx

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents and concluded the data was reliable. We used Postal Service
instructions, manuals, policies, and procedures as criteria to evaluate internal controls
and data reliability. We also evaluated whether the internal control structures over
stamp and money order accountabilities, disbursements, and expenses were
implemented and functioning as designed. We conducted interviews with management
and employees to assess their level of knowledge and involvement in the district and
the units at these judgmentally selected Postal Service sites. We discussed with district
management the potential causes of the conditions identified, considering training,
staffing, and oversight of Postal Service unit personnel and operations.

We conducted this performance audit from July through December 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on October 22, 2009, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG issued four financial installation audit reports for the Los Angeles District within
the past 3 years. The reports identified internal control and compliance issues such as
inadequate cash, stamp, and money order accountabilities; inactive advance deposit
trust accounts; unresolved financial differences; ineffective mail, passport, and check



                                             5
Fiscal Year 2009 Los Angeles District                                             FF-AR-10-028
 Financial Risk


acceptance procedures; improper review of Voyager card transactions and users;
inadequate safeguarding of assets; and inadequate documentation of leave
authorizations. The reports made recommendations to address these issues and
management agreed to take corrective action.

                                                                                    Non-
                                           Report      Final Report   Monetary    Monetary
           Report Title                   Number           Date        Impact      Impact
FY 2009 Financial Installation          FF-AR-09-012    11/13/2008       $7,725     $998,022
Audit – xxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxx
FY 2008 Financial Installation          FF-AR-08-188    5/27/2008        $3,900             -
Audit – xxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxx
FY 2008 Financial Installation          FF-AR-08-186    5/23/2008       $53,797     $228,334
Audit – xxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxx
FY 2008 Financial Installation          FF-AR-08-099    2/7/2008              -             -
Audit – xxxxxxxxxxxxxxxxxx–
xxxxxxxxxxxxxxxxxxxxxxxxxx




                                                  6
Fiscal Year 2009 Los Angeles District                                                            FF-AR-10-028
 Financial Risk


                              APPENDIX B: DETAILED ANALYSIS

Internal Controls Need Improvement

We identified internal control deficiencies over stamp, money order, and cash
accountability; and financial accounting and reporting.

Stamp, Money Order, and Cash Accountability

We examined controls over stamps, money orders, and cash at seven units and
determined that six did not always adhere to established controls and procedures.
Specifically units exceeded their stock limits, did not properly account for money orders,
or did not properly manage vending credits after deactivating and removing vending
machines from service. When controls are not functioning as prescribed, there is an
increased risk the Postal Service could lose cash, accountable items, and revenue
without detection and misstate financial records. The issues we identified included:

        Management at three units did not properly account for 4,204 unrecorded,
         missing, or old style money orders valued at $1,681,600.9 Postal Service policy
         requires the postmaster to maintain an accurate inventory of all accountable
         paper within the postal retail unit.10 Furthermore, policy requires unit
         management to return old style money orders to the SDO for destruction.11 For
         example, the xxxxxxxxxxxxxxxxxxxxxxxx was unaware he had 3,889 in
         unrecorded, missing, and old style money orders because the unit reserve had
         not been counted since November 2007. Management at the xxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxxxxx were unaware of 315 missing and unrecorded
         money orders from their units. Overall, unit management stated they were
         unaware of money order reconciliation procedures. The xxxxxxxxxxxxxxxxxxxxx
         also stated the district has had more acting than permanent managers, which
         has contributed to the situation. Because of our audit, the district finance
         manager is now requiring unit management to keep money order control logs
         and the district will conduct random reviews to verify compliance.

        Management at the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx did not
         close vending credits, deposit vending cash, and return the stock to the SDO
         after deactivating and removing vending machines from service in June 2008.12
         The previous supervisor had moved the cash and stamp stock for both units into
         one vault and took extended sick leave without completing the required
         procedures for closing the accountability. We identified shortages of $4,187 and
         $238 in the two accountabilities. We also found $7,005 in undeposited cash and
         $54,797 in stamps that unit management had not returned to the SDO.

9
  The OIG determined the average value of lost/stolen money orders is $400.
10
   FAP, Section 11-3.1.
11
   FAP, Section 11-6.11.
12
   Handbook PO-102, Self-Service Vending Operational and Marketing Program, Sections 257.2, and 256.1.




                                                      7
Fiscal Year 2009 Los Angeles District                                                                  FF-AR-10-028
 Financial Risk


See Appendix C for a summary of accountability examinations by unit. See Appendix D
for the monetary impact associated with the vending shortage and Appendix E for the
non-monetary impact associated with excess stock; unrecorded, missing, and old style
money orders; and stock not returned to the SDO.

Financial Accounting and Reporting

We examined financial accounting and reporting controls at 11 units and determined
that 10 units did not always adhere to established controls and procedures.
Specifically, units did not always monitor financial differences or advance customer
deposit accounts, record BRM revenue, or monitor employee items. When units do not
perform financial accounting and reporting, there is an increased risk of losing funds
and making inaccurate financial statements. The issues we identified included:

        Management at five units did not research and resolve financial differences.
         Four of those units had net shortages totaling $81,918. Units are required to
         research and resolve financial differences and maintain a system-generated
         record or log.13 Unit management generally stated they did not have an
         understanding of expenses related to differences in financial transactions and did
         not know they should maintain a log to track expenses. Unit management added
         they were newly assigned and unaware of the requirement to monitor, research,
         and resolve financial differences. The district finance manager stated that,
         because of our audit, they plan to visit any unit that needs help resolving issues
         when problem transactions are not resolved in 2 days. The district finance
         manager stated the district is also developing a course to train unit management
         on monitoring and resolving financial differences.

        Five units did not monitor advance deposit accounts for inactivity. We identified
         129 inactive accounts valued at $107,492. Units are required to close BRM
         accounts if they are inactive for 2 years and a PD account if it is inactive for 1
         year.14 The unit must send a cancellation notice to the customer and allow
         customers 10 days from the date of notice to respond. In addition, for account
         balances of $25 or less, the unit should withdraw the balance from the
         customer's account and refund it to Account Identifier Code 126, Miscellaneous
         Non-Postal Revenue. All the xxxxxxxxxx stated they either had not received
         training so did not know how to close inactive accounts, or they did not know it
         was their responsibility to monitor and close inactive accounts. In addition, the
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx did not have access to PostalOne!.
         Because of our audit, district business mail entry (BME) management stated they
         plan to train all xxxxxxxxxx in the district on handling inactive accounts.


13
   FAP, Section 8-6.1.
14
   FAP, Section 17-6. The Postal Service, however, is in the process of updating the FAP to change the requirement
to close inactive PD accounts after 2 years, rather than 1 year. Therefore, we used the 2-year rule for PD accounts in
this report.




                                                          8
Fiscal Year 2009 Los Angeles District                                                              FF-AR-10-028
 Financial Risk


        Management at the xxxxxxxxxxxxxxxxxxxxxxxxxxxxx did not effectively monitor revenue for
         unrecorded BRM and Official Mail Accounting System (OMAS)15 BRM.16 The
         xxxxxxxxxxxxxxxxx had not recorded BRM revenue for one customer for over 2
         years. The xxxxxxxxx stated she had not received training and did not have
         access to PostalOne! to record the revenue. At xxxxxxxxxxxxxx, the unit had not
         recorded and reported OMAS BRM revenue in over 5 years. The xxxxxxxxx
         stated she had not received training. Unit management was aware the
         xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx had not received training and did not have
         access to PostalOne!. Furthermore, unit management at both sites received
         correspondence from the Eagan, MN, Information Technology and Accounting
         Service Center’s Accounting and Reconciliation Branch (ARB) regarding the
         unrecorded revenue and was aware they were not recording revenue; however,
         they stated other duties took priority. As a result, the units did not record
         revenue of approximately $31,000. Because of our audit, district BME
         management stated they would train the BRM clerks.

        Management at the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx did not
         always reconcile, research, or resolve outstanding employee items totaling
         $13,689.17 At both units, supervisors stated they had been at their current
         position for about 1 month and were unaware of the outstanding employee items.
         There is an increased risk of lost funds and inaccurate financial statements when
         management does not monitor and clear employee items.

See Appendix D for the monetary impact associated with financial differences net
shortages, inactive advance deposit accounts, unrecorded BRM revenue, and
unresolved employee items.

The table on the following pages presents a summary of the internal control deficiencies
identified at each unit.




15
   OMAS is a system used to track use of various postal services provided to approximately 185 government
agencies. The main services provided include permit imprint and metered mail.
16
   FAP, Sections 6-5.2.2 and 17-5.1.2.
17
   FAP, Section 15-1.3.




                                                        9
Fiscal Year 2009 Los Angeles District                                                                                                                                             FF-AR-10-028
 Financial Risk


                                                            Summary of Internal Control Deficiencies18




                                          xxxxxxxxxxx


                                                        xxxxxxxxxxx
                                                        xxxxxxxxxxx

                                                        xxxxxxxxxxx
                                                        xxxxxxxxxxx




                                                                                                          xxxxxxxxxxx




                                                                                                                                              xxxxxxxxxxx
                                                                        xxxxxxxxxx
                                          xxxxxxxxx




                                                                                                                        xxxxxxxxx




                                                                                                                                                            Number of



                                                                                                                                                            Deficiency
                                                                                                                                                            units with
                                                        xxxxxxxx




                                                                                                xxxxxxx
                                                        xxxxxxx


                                                                        xxxxxxx


                                                                                     xxxxxxx




                                                                                                                        xxxxxxx
                                                                                                                                    xxxxxxx
                                                                                                                                    xxxxxxx




                                                                                                                                                            Internal
                                                                                                                                                            Control
                                                                                     xxxxxx


                                                                                                Xxxxx



                                                                                                          xxxxx
 Internal Control Deficiency –




                                                        ce


                                                        ce
       the unit did not:                                                                                                                                                       Specific Actions Required
                                                                Stamp, Cash and Money Order Accountability
1.   Maintain the stock within                                                                                                                                           Reduce the retail floor stock to limits
                                            X           X   X     X                   X         X                                                               6
     authorized limits.                                                                                                                                                  established by Postal Service policy.
 2. Properly account for money                                                                                                                                           Record or return money orders to the
                                            X                                         X         X                                                               3
    orders.                                                                                                                                                              SDO, as appropriate.
 3. Perform cash and stamp                                                                                                                                               Perform and document cash and
    accountability examinations                         X                             X         X                                                               3        stamp accountabilities at the required
    at the proper frequency.                                                                                                                                             frequencies.
                                                                                                                                                                         None. The unit closed credits during
 4. Close the vending credit.                           X         X                                                                                             2
                                                                                                                                                                         the audit.
 5. Record and maintain files
                                                                                                                                                                         Complete required stamp
    for stamp accountabilities              X                                         X                                                                         2
                                                                                                                                                                         accountability documentation.
    and internal stock transfers.
 6. Transfer custody of stamp                                                                                                                                            Adequately secure accountable
                                                                                      X         X                                                               2
    stock.                                                                                                                                                               items.
 7. Return redeemed stock to
                                                                                                X                                                               1        Return redeemed stock to the SDO.
    the SDO for destruction.19
 8. Keep cash credits separate
                                                                                                                                                                         None. The unit closed credits during
    from other accountable                  X                                                                                                                   1
                                                                                                                                                                         the audit.
    credits.
                                                                      Financial Accounting and Reporting
 9. Research and resolve                                                                                                                                                 Log financial differences and ensure
    expense items resulting                 X               X            X            X         X                                                               5        timely offset by making annotations to
    from financial differences.                                                                                                                                          identify status or date of offset.


         18
              We did not perform audit steps at the units that are shaded gray.
         19
              We found $20,328 in redeemed stock at the xxxxxxxxxxxxx.


                                                                                               10
Fiscal Year 2009 Los Angeles District                                                                                                                                          FF-AR-10-028
 Financial Risk




                                        xxxxxxxxxxx


                                                      xxxxxxxxxxx
                                                      xxxxxxxxxxx

                                                      xxxxxxxxxxx
                                                      xxxxxxxxxxx




                                                                                                       xxxxxxxxxxx




                                                                                                                                           xxxxxxxxxxx
                                                                     xxxxxxxxxx
                                        xxxxxxxxx




                                                                                                                     xxxxxxxxx




                                                                                                                                                         Number of



                                                                                                                                                         Deficiency
                                                                                                                                                         units with
                                                      xxxxxxxx




                                                                                             xxxxxxx
                                                      xxxxxxx


                                                                     xxxxxxx


                                                                                  xxxxxxx




                                                                                                                     xxxxxxx
                                                                                                                                 xxxxxxx
                                                                                                                                 xxxxxxx




                                                                                                                                                         Internal
                                                                                                                                                         Control
                                                                                  xxxxxx


                                                                                             Xxxxx



                                                                                                       xxxxx
 Internal Control Deficiency –




                                                      ce


                                                      ce
       the unit did not:                                                                                                                                                    Specific Actions Required
                                                                                                                                                                      Close or refund account balances to
 10. Close inactive advance
                                          X               X                                                           X          X            X              5        customers in accordance with Postal
     customer deposit accounts.
                                                                                                                                                                      Service policy.
 11. Properly support,                                                                                                                                                Properly complete, review, and retain
     document, and record                 X                                        X         X                                                               3        support documentation for refund
     refund transactions.20                                                                                                                                           disbursements.
 12. Resolve employee items                                                                                                                                           Reconcile and resolve employee
                                          X           X                                                                                                      2
     balances.                                                                                                                                                        items.
 13. Record BRM revenue for                                                                                                                                           Submit OMAS revenue documents to
                                                                                   X                                  X                                      2
     OMAS accounts.                                                                                                                                                   the ARB and train the BRM clerk.
 14. Reconcile Accounting Data
     Mart (ADM) master trust                                                                                                                                          Reconcile ADM master trust balances
     account balances with                X                                                                                                                  1        with balances maintained at the unit
     balances maintained by the                                                                                                                                       on a monthly basis.
     unit.21




         20
            We identified $1,086 in unsupported refunds at the xxxxxxxxxxxxx. At the xxxxxxxxxxxxxxxxxxxxxxx, the retail window unit paid five refunds, such
         as an insurance claim over $50 and travel expenses it should have paid by other means. In addition, the unit paid three refunds using the wrong
         account identifier code. At the xxxxxxxxxxxxxx, the unit paid one refund for an insurance claim over $50.
         21
            We identified a negative balance of $2,544 at the xxxxxxxxxxxxxxxxxxxxxxx.


                                                                                            11
Fiscal Year 2009 Los Angeles District                                                                                                                                                                           FF-AR-10-028
 Financial Risk


                                             APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

This table presents the results of accountability examinations performed during the audit, rounded to the nearest
dollar. Shortages and overages presented are the total value of all shortages and overages identified.
                             xxxxxxxxxx                       xxxxxxxxxxxx                      xxxxxxxx                                  xxxxx                          xxxxxx
                                xxxx                             xxxxxx                          xxxxxxx                                 xxxxxxx                         xxxxxxx                  Total Value of All

                             Shortages




                                                                Shortages




                                                                                               Shortages




                                                                                                                                   Shortages




                                                                                                                                                                   Shortages




                                                                                                                                                                                                    Shortages
                                               Overages




                                                                                Overages




                                                                                                                    Overages




                                                                                                                                                    Overages




                                                                                                                                                                                   Overages




                                                                                                                                                                                                                       Overages
Accountability22
Unit reserve
                         $15,615                          -                 -              -               -                   -               -   $7,330                      -              -   $15,615            $7,330
stock

Retail floor stock                       -   $27,590          $3,422                       -               -                   -               -   $3,812                      -   $609            $3,422           $32,011

Stamps by mail             $1,672                         -                 -              -               -                   -               -               -               -              -    $1,672                         -

Vending                                  -                -   $4,187                       -   $238                            -               -               -               -              -    $4,425                         -




22
     We only counted the accountabilities at five units in which the OIG PARIS model ranked the unit as having excess stamp stock.


                                                                                                               12
Fiscal Year 2009 Los Angeles District                                                                                                 FF-AR-10-028
 Financial Risk


                                             APPENDIX D: MONETARY IMPACT SUMMARY

This table presents the monetary impact identified during the audits of the 11 units, rounded to the nearest dollar.

                                                                                                                         Questioned Costs
  Internal Control
Deficiency/Reference                                                                 Recoverable23                                    Unsupported
 (from Appendix B)                        Finding Description                          Revenue                Recoverable24          Unrecoverable25
xxxxxxxxxxxxxxxxxxxxxxx
            9               Unresolved financial differences (net shortage)                                                                       $25,301
           10               Inactive advance deposit account not closed                         $18,419
           12               Unresolved employee items                                                                  $10,066
xxxxxxxxxxxxxxxxxxxxxxxxx
      Appendix C            Retail floor stock shortage                                                                                              3,422
      Appendix C            Vending shortage                                                                                                         4,187
            4               Undeposited vending cash                                               5,232
           12               Unresolved employee items                                                                    3,623
xxxxxxxxxxxxxxxxxxxxxxxx
            9               Unresolved financial differences (net shortage)                                                                          7,247
           10               Inactive advance deposit account not closed                          11,251
xxxxxxxxxxxxxxxx
      Appendix C            Vending shortage                                                                                                             238

            4               Undeposited vending cash                                               1,773



23
   Revenue the agency has collected but which it should refund because postage or fees were paid in excess of the lawful rate.
24
   Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.
25
   Unrecoverable cost that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs are also not supported by adequate
documentation.


                                                                            13
Fiscal Year 2009 Los Angeles District                                                                          FF-AR-10-028
 Financial Risk


                                                                                                      Questioned Costs
  Internal Control
Deficiency/Reference                                                        Recoverable23                       Unsupported
 (from Appendix B)                      Finding Description                   Revenue         Recoverable24    Unrecoverable25
xxxxxxxxxxxxxxxxxx
           9              Unresolved financial differences (net shortage)                                                 32,764
xxxxxxxxxxxxxx
           13             Unrecorded BRM and OMAS revenue                            28,000
xxxxxxxxxxxxx
           9              Unresolved financial differences (net shortage)                                                 16,606
           11             Unsupported or improperly supported refunds                                                         1,086
xxxxxxxxxxxxxxxxx
           10             Inactive advance deposit accounts not closed               21,826
           13             Unrecorded BRM and OMAS revenue                             3,114
xxxxxxxxxxxxxxx
           10             Inactive advance deposit accounts not closed               30,466
xxxxxxxxxxx
           10             Inactive advance deposit accounts not closed               25,530
Total                                                         $250,151             $145,611          $13,689             $90,851




                                                                      14
Fiscal Year 2009 Los Angeles District                                                                    FF-AR-10-028
 Financial Risk




                             APPENDIX E: NON-MONETARY SUMMARY

  This table presents the non-monetary impact, rounded to the nearest dollar, for each of
  units audited.

          Internal Control
             Deficiency/
             Reference                                                       Assets at          Accountable
         (from Appendix B)              Finding Description                   Risk26           Items at Risk26
        xxxxxxxxxxxxxxxxxxxxxxx
                   1              Excess SBM stock                                                     $268,540
                                  Unrecorded and missing money
                   2                                                                                     45,600
                                  orders
                                  Master trust account balance not
                  14                                                               $2,544
                                  reconciled
        xxxxxxxxxxxxxxxxxxxxxxxxx

                   1              Excess retail floor stock                                              35,785
                                  Vending stock not returned to
                   4                                                                                     43,447
                                  SDO
        xxxxxxxxxxxxxxxxxxxxxxxx
                   1              Excess retail floor stock                                              48,112
        xxxxxxxxxxxxxxxx
                   1              Excess retail floor stock                                              47,960
                                  Vending stock not returned to
                   4                                                                                     11,350
                                  SDO
        xxxxxxxxxxxxxx
                   1              Excess retail floor stock                                              53,781
                   2              Unrecorded money orders                                                80,400
        xxxxxxxxxxxxx
                   1              Excess retail floor stock                                              31,454
                                  Unrecorded, missing and old
                   2                                                                                  1,555,600
                                  style money orders
                                  Redeemed stock not returned to
                   7                                                                                    19,66727
                                  SDO
                                  Subtotals                                        $2,544            $2,241,696
                Total                                                                                $2,244,240



  26
     Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
  inadequate internal controls.
  27
     We identified $20,329 of redeemed stock the unit did not return to the SDO, but $662 was included in the floor
  stock and, thus, claimed as non-monetary impact under the excess floor stock for the xxxxxxxxxxxxx.


                                                           15
Fiscal Year 2009 Los Angeles District                       FF-AR-10-028
 Financial Risk




                        APPENDIX F: MANAGEMENT’S COMMENTS




                                        16
Fiscal Year 2009 Los Angeles District        FF-AR-10-028
 Financial Risk




                                        17
Fiscal Year 2009 Los Angeles District        FF-AR-10-028
 Financial Risk




                                        18
Fiscal Year 2009 Los Angeles District        FF-AR-10-028
 Financial Risk




                                        19
